         UNIVERSITY OF HAWAII
        c/o Office of Research Services
               2530 Dole Street
               Sakamaki D-200
            Honolulu, Hawaii 96822

  National Science Foundation Award Number
                 EEC-9731725


                Financial Audit
                       of
              Financial Schedules
                      and
         Independent Auditors’ Reports

For the Period November 1, 1998 to July 31, 2004




                                  M.D. Oppenheim & Company, P.C.
                                        Certified Public Accountants
                                    485 U.S. Highway 1, Building C
                                     Iselin, New Jersey 08830-4100
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                        UNIVERSITY OF HAWAII

                           TABLE OF CONTENTS



                                                                       Page
ACRONYMS                                                                 1
BACKGROUND                                                               3
AUDIT OBJECTIVES, SCOPE AND METHODOLOGY                                  3
SUMMARY OF AUDIT RESULTS                                                 5
EXIT CONFERENCE                                                          8
INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES                     10
INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS
  AND INTERNAL CONTROL OVER FINANCIAL REPORTING                         12
FINDINGS AND RECOMMENDATIONS                                            15
SCHEDULE A – SCHEDULE OF AWARD COSTS                                    20
SCHEDULE B – SCHEDULE OF QUESTIONED COSTS                               21
SCHEDULE C – SCHEDULE OF ADJUSTMENTS AND RECLASSIFICATIONS              22
SCHEDULE D – SCHEDULE OF COST SHARING                                   23
SCHEDULE D-1 – SCHEDULE OF QUESTIONED COST SHARING                      24
SCHEDULE E – SUMMARY SCHEDULE OF AWARD AUDITED AND AUDIT RESULTS        25
NOTES TO FINANCIAL SCHEDULES                                            27
APPENDIX A – AUDITEE’S COMMENTS TO REPORT                               29
                        UNIVERSITY OF HAWAII

                                   Acronyms


Acronym   Explanation of Acronym

CMMED     Center for Marine Microbial Ecology and Diversity

CONUS     Continental United States

DACS      Division of Acquisition and Cost Support

DGA       Division of Grants and Agreements

ERC       Engineering Research Center

FCTR      Federal Cash Transactions Report

GPM       Grant Policy Manual

GSA       General Services Administration

MarBEC    Marine Bioproducts Engineering Center

MTDC      Modified Total Direct Costs

NSF       National Science Foundation

OIG       Office of Inspector General

OMB       Office of Management and Budget

ORS       Office of Research Services

PAR       Personnel Activity Report

PI        Principal Investigator

SOEST     School of Ocean and Earth Science and Technology

UCAL      University of California

UH        University of Hawaii




                                                              1
EXECUTIVE SUMMARY




                    2
                                     BACKGROUND

The University of Hawaii (“UH”) is a public, state-supported educational institution. UH
was awarded a cooperative agreement from the National Science Foundation (“NSF”) to
build the foundations of engineering research and education for a 21st century marine
biotechnology business devoted to high-value products destined for the chemical,
pharmaceutical, nutraceutical, cosmetic, food, feed, and life sciences industries. This
program was administered by the Engineering Research Center (“ERC”) for Marine
Bioproducts Engineering (“MarBEC”) a department of UH. During the operations of the
program, UH established a scientific working relationship with the University of California,
Berkeley (“UCAL, Berkeley”) through a sub-contract, which was to assist in the marine
biotechnology research. The original intent of NSF was to fund this marine biotechnology
research for a period of ten years beginning in 1998. However, based upon an NSF site-
review NSF decided to terminate the program after the initial five-year award that ended in
2003, and provided a phase-down of operations through July 31, 2004.

NSF awarded Cooperative Agreement No. EEC-9731725 to UH for the period November 1,
1998 to July 31, 2004. The agreement provided the initial five-year funding in the amount of
$9,852,441 with a required cost-sharing match of $3,228,256. As of July 31, 2004, UH
reported $9,852,045 in claimed costs and $3,228,256 in cost sharing.

UH, as a Federal awardee, is required to follow the cost principles specified in Office of
Management and Budget (OMB) Circular A-21, Cost Principles for Educational Institutions and
Federal administrative requirements contained in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.

               AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

     At the request of the NSF Office of Inspector General (OIG), M.D. Oppenheim &
Company, P.C. conducted an audit of NSF award EEC-9731725 granted to UH for the period
November 1, 1998 to July 31, 2004.
   The objectives of our audit engagement were to:
   1. Determine whether UH’s Schedule of Award Costs presents fairly, in all material
      respects, the costs claimed on the Federal Cash Transactions Reports (“FCTR”) –
      Federal Share of Net Disbursements and that the costs claimed, including cost
      sharing, are in conformity with Federal and NSF award requirements.
   2. Identify matters concerning instances of noncompliance with laws, regulations, and
      the provisions of the award agreement pertaining to the NSF award and weaknesses in
      UH’s internal control over financial reporting that could have a direct and material
      effect on the Schedule of Award Costs and UH’s ability to properly administer,
      account for, and monitor its NSF awards.
   3. Determine whether the costs incurred under a subcontract awarded by UH to UCAL,
      Berkeley were documented and allowable under the terms and conditions of the
      subcontract agreement, NSF and Federal regulations.



                                                                                          3
    Except as discussed in the following paragraph, we conducted our audit in accordance
with auditing standards generally accepted in the United States of America, Government
Auditing Standards, (2003, revised) , issued by the Comptroller General of the United States,
and the National Science Foundation Audit Guide, September 1996, as applicable. Those
standards and the National Science Foundation Audit Guide require that we plan and perform
the audit to obtain reasonable assurance about whether the amounts claimed to NSF as
presented in the Schedule of Award Costs (Schedule A), are free of material misstatements.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Award Costs. An audit also includes assessing the accounting
principles used and significant estimates made by UH, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

   We were unable to satisfy ourselves as to the accuracy of $1,741,879 of cost sharing
because UH recorded estimated rather than actual labor cost sharing contributions. Failure of
UH management to provide its actual labor cost sharing contributions is considered an audit
scope limitation by Statement of Auditing Standards No. 85. Therefore, we have issued a
qualified opinion on the Schedule of Award Costs (see finding 1 for more details).

    We used non-statistical sampling to test the costs claimed by UH for compliance with
Federal and NSF award requirements. Based on this sampling plan, questioned costs in this
report may not represent total costs that may have been questioned had all expenditures been
tested. In addition, we made no attempt to project such costs to total costs claimed, based on
the relationship of costs tested to total costs.




                                                                                            4
                           SUMMARY OF AUDIT RESULTS

       An audit was performed on the costs claimed in financial reports submitted to the
National Science Foundation as well as cost sharing provided by UH on the NSF award
audited. These costs are shown in the Schedule of Award Costs (Schedule A) and are
summarized as follows:

   Award              Award                                 Questioned        Questioned
   Number             Budget           Claimed Costs        NSF Costs         Cost Sharing

EEC-9731725          $ 9,852,441      $ 9,852,045             $ 265,449

Cost Sharing         $ 3,228,256      $ 4,318,471(A)                             $ 305,706

(A) Includes $3,228,256 of claimed cost sharing plus an additional $1,090,215 that was not
    claimed, but was accounted for by UH.

     Our audit of the aforementioned award disclosed that the costs claimed on the NSF
award by UH and subcontractor, UCAL Berkeley appear fairly stated and generally appear
allowable, allocable, and reasonable, in accordance with applicable Federal and NSF
requirements, except for $265,449 of subcontract costs, $1,741,879 of UH’s cost sharing and
$305,706 of the subcontractor’s cost sharing.

      Specifically, we questioned $265,449 in undocumented subcontract costs for personnel,
equipment, and other non-personnel costs claimed by the UCAL, Berkeley. In addition, we
questioned $305,706 in cost sharing because of salaries, wages, related fringe benefits and
indirect costs that were charged by the subcontractor, UCAL Berkeley, but were not
supported with documentation.

     We also identified $1,741,879 of inadequately supported UH labor cost sharing.
Although we did not question these costs, we qualified our audit opinion on the Statement of
Award Costs because we could not determine the accuracy of these costs, since they were
based on estimated rather than actual labor costs.




                                                                                             5
      In general, UH’s systems of internal controls were adequate to properly administer,
account for, and monitor its NSF award in compliance with Federal and NSF requirements
except for accounting for cost sharing and documentation of subcontract costs. The
following is a brief description of the internal control and compliance findings that caused
the qualified audit opinion and questioned costs. All the findings identified are instances of
noncompliance, however, the first finding is also an internal control weakness that could
have a significant impact on UH’s ability to record, process, summarize and report financial
data, and effectively and efficiently administer NSF funds in a manner that is consistent with
Federal and NSF requirements.

     •   UH has not adequately documented or reported its actual cost sharing contributions
         in accordance with its NSF award and OMB Circular requirements. Specifically,
         UH used an estimate to allocate cost sharing/labor costs to NSF’s award without
         making any adjustments to reflect changes and fluctuations in actual workload. As
         a result, we could not determine the accuracy of $1,741,879 of cost sharing recorded
         by UH (which resulted in a limitation on the scope of our audit). In addition, UH
         procedures for accounting for cost sharing, (Administrative Procedures No. A8.947)
         do not fully explain, when and how previously allocated salaries and wages related
         to cost sharing should be readjusted to reflect changes in actual workload. Also,
         these procedures do not provide definitions for the terms “reasonable” and
         “significant” to clarify when adjustments to the estimated allocation are necessary.

     •   We also questioned $305,706 of cost sharing and $265,449 of direct NSF funded
         costs claimed by the subcontractor, UCAL, Berkeley, because of inadequate
         supporting documentation.

        To address these internal control and compliance findings, we recommend that the
NSF Directors of the Division of Institution and Award Support (“DIAS”) and the Division
of Grants and Agreements (“DGA”) direct UH personnel to properly document and report
actual as opposed to estimated cost sharing expenses to NSF. Specifically, UH staff should
institute procedures to (a) track and report actual cost sharing costs incurred in its reports to
NSF; (b) maintain all written after-the-fact certifications on a contemporaneous basis to
support salary and wage costs reported as cost share by the subcontractor, and (c) refine the
University’s written policy concerning the definition of key aspects of their work distribution
plan including the terms “reasonable” and “significant.” Furthermore, NSF’s Division
Directors of DIAS and DGA should ensure that the University of Hawaii and its
subcontractor, UCAL, Berkeley, for current and future NSF awards, institute procedures to
maintain the necessary source documentation to support all costs reported to NSF, including
cost sharing as required by Federal and NSF grant requirements.




                                                                                               6
In September 2006, UH officials provided their response to the audit findings and
recommendations made in this report, generally they agreed with those findings and
recommendations and stated the new procedures UH would implement to address the
recommendations made. UH, however, did not provide any additional support related to the
questioned costs. The findings and recommendations in the report cannot be resolved until
NSF verifies that the recommendations have been adequately addressed and the proposed
corrective actions have been satisfactorily implemented. UH’s response has been
summarized within the report and is included in its entirety in Appendix A.

For a complete discussion of these findings, refer to the Independent Auditors’ Report on
Compliance with Laws and Regulations and Internal Control Over Financial Reporting.




                                                                                       7
                                 EXIT CONFERENCE

An exit conference was held on March 24, 2005 at the University of Hawaii. Findings and
recommendations as well as other observations contained in this report were discussed with
those attending.

Representing the University of Hawaii:

     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

Representing M.D. Oppenheim & Company, P.C.:

     Joseph J. Scudese CPA, Partner
     Richard L. Sobine LPA, Audit Manager
     Ambrose Umali CPA, Senior Accountant




                                                                                        8
FINDINGS AND RECOMMENDATIONS




                               9
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

       INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by the University of Hawaii (“UH”) to the National Science
Foundation (“NSF”) on the Federal Cash Transactions Reports (“FCTR”) – Federal Share of Net
Disbursements for the NSF award listed below. In addition, we also audited the amount of cost
sharing claimed on the award. The Federal Cash Transactions Reports, as presented in the
Schedule of Award Costs (Schedule A) are the responsibility of UH’s management. Our
responsibility is to express an opinion on the Schedule of Award Costs (Schedule A) based on
our audit.

            Award
            Number                 Award Period                   Audit Period

         EEC-9731725            November 1, 1998 to           November 1, 1998 to
                                   July 31, 2004                 July 31, 2004

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America, Government Auditing
Standards (June 2003 Revision) issued by the Comptroller General of the United States, and the
National Science Foundation Audit Guide (September 1996), as applicable. Those standards and
the National Science Foundation Audit Guide require that we plan and perform the audit to
obtain reasonable assurance about whether the amounts claimed to the National Science
Foundation as presented in the Schedule of Award Costs (Schedule A), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedule of Award Costs (Schedule A). An audit also includes assessing
the accounting principles used and significant estimates made by UH’s management, as well as
evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion.

As detailed in finding number 1 in the findings and recommendations section of this report, we
were unable to satisfy ourselves as to the accuracy of $1,741,879 of claimed cost sharing
contributions reported by the University of Hawaii.




                                                                                           10
National Science Foundation
Office of Inspector General


The Schedule of Questioned Costs (Schedule B) explain the claimed costs totaling $265,449 that
are questioned as to the cost allowability under the NSF award agreement. Questioned costs are
(1) costs for which there is documentation that the recorded costs were expended in violation of
the laws, regulations or specific conditions of the award, (2) costs that require additional support
by the awardee, or (3) costs that require interpretation of allowability by the National Science
Foundation, Division of Institution and Award Support (DIAS). The National Science
Foundation will make the final determination as to whether such costs are allowable. The
ultimate outcome of this determination cannot presently be determined. Accordingly, no
adjustment has been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for $265,449 of questioned NSF-funded costs, $305,706 of unsupported
cost sharing contributions claimed by the subcontractor, and $1,741,879 of unauditable cost
sharing contributions, the Schedule of Award Costs (Schedule A) referred to above presents
fairly, in all material respects, the costs claimed on the FCTRs and cost sharing claimed for the
period November 1, 1998 to July 31, 2004 in conformity with the National Science Foundation
Audit Guide, NSF Grant Policy Manual, and the terms and conditions of the NSF award and on
the basis of accounting described in the Notes to the Financial Schedules. This schedule is not
intended to be a complete presentation of financial position in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation Audit Guide, we have also issued a report dated March 24, 2005 on our tests of the
University of Hawaii’s compliance with certain provisions of laws, regulations, the NSF award
terms and conditions, and our consideration of the University of Hawaii’s internal control over
financial reporting. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

This report is intended solely for the information and use of the University of Hawaii’s
management, the National Science Foundation, the cognizant Federal Audit Agency, the Office
of Management and Budget, and the Congress of the United States and is not intended to be and
should not be used by anyone other than these specified parties.




March 24, 2005




                                                                                                 11
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

    INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND
   REGULATIONS AND INTERNAL CONTROL OVER FINANCIAL REPORTING

We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes the financial reports submitted by the University of Hawaii (“UH”) to the
National Science Foundation (“NSF”) and claimed cost sharing, for the award listed below and
have issued our report thereon dated March 24, 2005.

            Award
            Number                  Award Period                    Audit Period

         EEC-9731725            November 1, 1998 to            November 1, 1998 to
                                   July 31, 2004                  July 31, 2004


We conducted our audit of the Schedule of Award Costs as presented in Schedule A-1 in
accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards (June 2003, Revision) issued by the Comptroller General of the
United States, and the National Science Foundation Audit Guide (September 1996), as
applicable. These standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial schedules
are free of material misstatement.

                   COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions
is the responsibility of UH’s management. As part of obtaining reasonable assurance about
whether the financial schedule is free of material misstatement, we performed tests of UH’s
compliance with certain provisions of laws, regulations, and the NSF award terms and
conditions, noncompliance with which could have a direct and material effect on the
determination of the financial schedule amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit, and accordingly, we do not express such
an opinion.




                                                                                             12
National Science Foundation
Office of Inspector General


The results of our tests disclosed two instances of noncompliance that are required to be
reported under Government Auditing Standards and the National Science Foundation Audit
Guide, See Finding Nos. 1 and 2 presented in the Findings and Recommendations section
of this report.

              INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of Schedule of Award Costs (Schedule A) for the
period November 1, 1998 to July 31, 2004, we considered UH’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedule and not to provide an opinion on the
internal control over financial reporting. Accordingly, we do not express such an opinion.

However, we noted a certain matter involving internal control over financial reporting and its
operation that we consider to be a reportable condition under standards established by the
American Institute of Certified Public Accountants. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal control over financial reporting that, in our judgment, could adversely affect UH’s
ability to record, process, summarize and report financial data consistent with the assertions
of management in the financial schedule. The reportable condition noted is described in
Finding No. 1 presented in the Findings and Recommendations section of this report.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also considered
to be material weaknesses. However, we believe that the reportable condition noted in
Finding 1 above is a material weakness.

We considered these instances of noncompliance and the internal control weakness in
forming our opinion of whether the Schedule of Award Costs (Schedule A) present fairly in
all material respects, the costs clamed by UH on the Federal Cash Transactions Report –
Federal Share of Net Disbursements and cost sharing claimed, for the period November 1,
1998 to July 31, 2004, in conformity with the National Science Foundation Audit Guide
(September 1996), NSF Grant Policy Manual, the Federal Laws and Regulations, and NSF
award terms and conditions, and determined that this report does not affect our report dated,
March 25, 2005, on the Financial Schedules.

                                                                                            13
This report is intended solely for the information and use of UH’s management, the NSF, the
cognizant Federal Audit Agency, the Office of Management and Budget, and the Congress of
the United States and is not intended to be and should not be used by anyone other than these
specified parties.




March 24, 2005




                                                                                          14
                                UNIVERSITY OF HAWAII
                               Findings and Recommendations
                             NSF Award Number EEC-9731725
                           From November 1, 1998 to July 31, 2004

                                      Material Weakness

FINDINGS AND RECOMMENDATIONS

1.   Unrealistic Percentages for Allocating Labor Costs Related to Cost Sharing
     Contributions

        During our audit of UH’s claimed cost-sharing contributions (claimed cost sharing
consists of direct labor, fringe benefits, and indirect costs) of $3,228,256, we noted that the
grantee’s allocated labor costs were based on estimated and not actual costs. This practice is
contrary to OMB Circular A-21, Section J, item 8 (c) (1), which provides for the distribution
of salaries and wages of professionals and professional staff applicable to sponsored
agreements based on budget, planned, or assigned work activity, updated to reflect any
significant changes in work distribution. As a result, we were unable to satisfy ourselves
as to the accuracy of $1,741,879 (XXXXX) of the cost sharing claimed by the University of
Hawaii on its NSF award. Accordingly, we issued a qualified opinion on the Schedule of
Award Costs. Failure of UH to record actual labor costs could have a significant impact on
UH’s ability to record, process, and report accurate labor and related fringe and indirect cost
sharing on NSF awards.

        UH used the budgeted work plan included in its award proposal to NSF as the basis to
allocate its direct labor costs for cost-sharing contributions, without taking into consideration
the normal fluctuations and unexpected changes in actual workload that might have occurred
during the five-year performance period of the grant. For instance, if UH proposed that a
professional employee would be devoting 50 percent of his or her time to work on the subject
NSF grant for cost-sharing purposes, UH used this estimated percentage throughout the 5-
year life of the grant to claim labor cost sharing without adjusting for actual work effort that
would likely occur over a multiyear period. On the other hand, UH employees who worked
exclusively on the subject NSF grant were properly charged for their entire salary plus fringe
benefits and indirect costs to cost sharing contributions.

       Moreover, during our audit we reviewed UH’s policies and procedures for
Accounting for Cost Sharing to determine their adequacy and compliance with OMB
Circular A-21. Our review disclosed that UH’s cost sharing policies and procedures are
incomplete and need clarification. Specifically, UH’s Administrative Procedure No. A8.947,
Accounting for Cost Sharing, did not explain when and how previously allocated labor
costs/cost sharing contributions would be adjusted to reflect significant changes in actual




                                                                                              15
workload as required by OMB Circular A-21. Also, these procedures do not provide
definitions for the terms “reasonable” and “significant” to clarify when adjustments to the
estimated allocation are necessary. As such, UH has been using budgeted efforts/hours to
distribute payroll expenses without making any adjustments to reflect changes in actual
workload.

Recommendation No. 1

       NSF’s Division Directors of DIAS and DGA should ensure that UH management
updates the budgeted percentages used to allocate direct labor costs/ cost sharing
contributions to reflect actual work distribution and fluctuations as required by OMB
Circular A-21 requirements.

Recommendation No. 2

        NSF’s Division Directors of DIAS and DGA should ensure that UH management
clarifies and updates its policies and procedures (Administrative Procedure No. A8.947) for
accounting for cost sharing to comply with OMB Circular A-21 requirements. Specifically,
UH policy should explain when and how previously allocated labor costs/cost sharing
contributions would be updated and redistributed based on the fluctuations in actual
workload and provide definitions for key aspects of its work distribution plan, including the
terms “reasonable” and “significant.”

Auditee’s Response

       UH officials in their September, 2006 response letter generally concurred with the
recommendations and plan to amend their Administrative Procedure No. A8.947. UH’s
proposed amendment would incorporate language to clarify fluctuations in allocation
percentages between short-term and long-term allocation fluctuations.

Auditors’ Comment

        Overall UH’s comment appears responsive to the recommendations. However, the
finding cannot be resolved until NSF verifies that the proposed corrective action has been
satisfactorily implemented.




                                                                                          16
                           Non-Material Compliance Deficiency

2. Inadequate Supporting Documentation for Subcontract Costs

       Our audit of the subcontract costs reported by UCAL, Berkeley to UH disclosed
questioned costs totaling $265,449 or 2.6 percent of total NSF funded costs and $305,706 or
7 percent of total claimed cost sharing due to the lack of adequate supporting documentation.
OMB Circular A-110, Subpart C, Section .21 (b) (7) requires accounting records, including
cost accounting records, be supported by source documentation. In addition, the subcontract
agreement between UH and UCAL, Berkeley, Subpart 2, requires the subcontractor to
conform to all aspects of the Cooperative Agreement and other Federal rules and regulations
that may apply to the subagreement.

        UCAL, Berkeley could not locate source documentation to support personnel costs,
including salaries and wages and applicable fringe benefits, in the amount of $46,950 plus
applicable indirect costs of $14,587 for a total of $61,537. Also, of 72 Personnel Activity
Reports (time certification statements for each employee) selected for testing 7, or XXX,
totaling $15,964, including applicable fringe benefits, could not be located. In addition,
XXX of the 19 paid payroll checks totaling $30,986, including applicable fringe benefits,
selected for testing could not be provided.

       UCAL, Berkeley also could not locate source documentation to support $152,510 or
XXX percent of total equipment costs. Of the 14 items selected for testing, 6 vendor
invoices totaling $134,712 could not be located. In addition, one paid check in the amount of
$17,798 could not be provided.

       UCAL, Berkeley also could not locate source documentation to support other non-
personnel costs in the amount of $51,402 ($34,590 plus applicable indirect costs of $16,812).
Of the 56 items selected for testing 8, or XXX, of the vendor invoices totaling $36,285,
including applicable indirect costs, could not be located ($24,271 plus indirect costs of
$12,014). In addition, 7 paid checks totaling $15,117 selected for testing could not be
provided ($10,319 plus indirect costs of $4,798).

       Finally UCAL, Berkeley could not adequately document their allocations of level of
effort for personnel costs, including salaries and wages and applicable fringe benefits,
reported for cost sharing in the amount of $305,706 including applicable indirect costs
($203,262 plus indirect costs of $102,444). Twenty-seven or X percent of the 32 Personnel
Activity Reports (time certification statements for each employee) selected for testing
contained incomplete information to document/certify time spent on NSF program related
cost sharing activities totaling $203,262 ($173,728 plus fringe benefits of $29,534).

       We were informed by UCAL staff that the location for the unlocated documentation
was at an off-site storage facility which was temporarily closed to employee access due to
environmental health concerns.



                                                                                          17
Recommendation No. 1

        NSF’s Division Directors of DIAS and DGA should ensure that the University of
Hawaii and its subcontractor, UCAL, Berkeley staff, for current and future NSF awards,
institute procedures to maintain the necessary source documentation to support all costs
reported to NSF, including documentation for cost sharing as required by the appropriate
OMB Circulars and the NSF Grant Policy Manual.

Auditee’s Response

       UH officials in their September 2006, response letter concurred with the
recommendation and would be examining and revising all subrecipient agreements related to
record retention policies. UH did not provide any additional documentation related to the
questioned costs.

Auditors’ Comment

        Overall UH’s comment appears responsive to the recommendation. However, the
finding cannot be resolved until NSF verifies that the proposed corrective action has been
satisfactorily implemented. Finally, since UH did not provide any documents related to the
questioned costs, they remain as stated.




                                                                                       18
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION




                           19
                                                                      UNIVERSITY OF HAWAII
                                                         National Science Foundation Award No. EEC-9731725
                                                                       Schedule of Award Costs
                                                               From November 1, 1998 to July 31, 2004
                                                                                Final
                                                                                                                                                            Questioned NSF Costs and
                                                                                                                                 Claimed                     Questioned Cost Sharing
                                                                                                  Adjustments                   Costs After
                                                 Approved                    (A)                       and                    Adjustments and                                  Schedule
               Cost Category                      Budget                Claimed Costs            Reclassifications            Reclassifications            Amount              Reference

     Direct costs:
      Salaries and wages                      XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX                      $
      Fringe benefits                         XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Permanent equipment                     XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Travel                                  XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Participant support                     XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
     Other direct costs:
      Materials and supplies                  XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Publication costs                       XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Consultant services                     XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Computer services                       XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
      Subcontracts                            XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX                          265,449            B
      Other                                   XXXXXXXXX                 XXXXXXXXX                XXXXXXXXX                   XXXXXXXXX
          Total direct costs                        8,396,646                 8,488,417                        -0-                 8,488,417                    265,449
     Indirect costs (C)                             1,525,955                 1,363,628                                            1,363,628
     Residual funds (B)                               (70,160)
           Total                                   $ 9,852,441              $ 9,852,045                 $      -0-              $ 9,852,045                 $ 265,449
                                                                                                    2
     Cost sharing                                  $ 3,228,256              $ 3,228,256              $ 1,090,215                $ 4,318,471                 $ 305,706          C,D, D-1
     (A)       The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report – Federal Share of Net Disbursements as of the quarter
               ended September 30, 2004. Claimed costs reported above are taken directly from the University of Hawaii’s books of accounts.
     (B)       In Amendment Number 6 to the cooperative agreement, NSF allowed UH to carry forward residual funds remaining on an old grant in the amount of $70,160.
     See accompanying notes to this financial schedule.
     (C)       Indirect costs are calculated on the modified total direct cost basis (“MTDC”), which is total direct costs less equipment, participant support costs and subcontract costs in
               excess of $25,000 per subcontract. The Awardee utilized predetermined MTDC indirect cost rates as follows:
                                                                                                       Federally Approved Rate
                                                                      Period                            On-Campus                 Off-Campus
                                                  November 1, 1998 to June 30, 2000                          34.9%                  20.4%
                                                  July 1, 2000 to July 31, 2004                              36.3%                  20.6%


     1
      This amount represents a recommended upward adjustment to the cost-sharing amount claimed by UH, and it consists of $798,000 reported by




                                                                                                                                                                                                Schedule A
     UCAL/Berkeley (sub-contractor) to UH as cost sharing, and $292,215 of graduate student tuition which was waived by UH for students that
     performed work on the audited NSF grant.
20




     See accompanying notes to this financial schedule.
                                                                                 Schedule B

                                  UNIVERSITY OF HAWAII
                     National Science Foundation Award No. EEC-9731725
                                 Schedule of Questioned Costs
                           From November 1, 1998 to July 31, 2004


Subcontract Costs:

We are questioning $265,449 of subcontract costs as follows:

       a) UCAL, Berkeley could not locate source documentation to support personnel
          costs, including salaries and wages and applicable fringe benefits, in the amount
          of $46,950 plus applicable indirect costs of $14,587 for a total of $61,537.
          Specifically, personnel Activity Reports (time certification statements for each
          employee) selected for testing could not be located totaling $12,874 with
          applicable fringe benefits of $3,090. In addition, XXXX of the 19 paid payroll
          checks selected for testing could not be provided totaling $24,989 with applicable
          fringe benefits of $5,997.

       b) UCAL, Berkeley could not locate source documentation to support $152,510 of
          equipment costs. Vendor invoices could not be located for a total of $134,712. In
          addition, one paid check in the amount of $17,798 could not be provided (Two
          paid checks also could not be provided for two of the missing invoices indicated
          above. However, these costs are included in the missing invoices total above and
          are not questioned twice.).

       c) UCAL, Berkeley could not locate source documentation to support other non-
          personnel costs in the amount of $34,590 plus applicable indirect costs of $16,812
          for a total of $51,402. Vendor invoices could not be located for a total of $24,271
          with applicable indirect costs of $12,014. In addition, 7 paid checks selected for
          testing could not be provided totaling $10,319 plus applicable indirect costs of
          $4,798 (Three paid checks also could not be provided for three of the missing
          invoices indicated above. However, these costs are included in the missing
          invoices total above and are not questioned twice.).




                                                                                          21
                                                                              Schedule C

                               UNIVERSITY OF HAWAII
                  National Science Foundation Award No. EEC-9731725
                      Schedule of Adjustments and Reclassifications
                        From November 1, 1998 to July 31, 2004


The following are the recommended upward adjustments to the cost sharing amount reported
by the University of Hawaii to NSF:

                                                                          Amount of
                       Explanation of Adjustment                          Adjustment

   1. To record the amount of cost sharing as reported by UCAL,
      Berkeley (the subcontractor under this award) for salaries and
      wages and the related fringe benefits and indirect costs to UH.
      This amount was not reflected in the final report of cost sharing
      that UH submitted to NSF.                                           $   798,000

   2. To record graduate student tuition which was waived by UH
      for those students who performed work related to this NSF
      award.                                                                  292,215

           Total adjustments to cost sharing                              $ 1,090,215




                                                                                        22
                                                                                   Schedule D

                               UNIVERSITY OF HAWAII
                  National Science Foundation Award No. EEC-9731725
                                Schedule of Cost Sharing
                        From November 1, 1998 to July 31, 2004


                                                   Cost Sharing
   Cost           Cost                             Claimed After
  Sharing        Sharing      Adjustments and     Adjustments and     Questioned    Schedule
  Required       Claimed      Reclassifications   Reclassifications     Costs       Reference

$ 3,228,256    $ 3,228,256      $ 1,090,215         $ 4,318,471       $ 305,706       D-1
                               (Schedule C)




The accompanying schedule referenced to explain questioned costs is an integral part of this
financial schedule.
                                                                                            23
                                                                              Schedule D-1

                               UNIVERSITY OF HAWAII
                  National Science Foundation Award No. EEC-9731725
                           Schedule of Questioned Cost Sharing
                        From November 1, 1998 to July 31, 2004

Questioned cost sharing of $305,706 is comprised of the following:

                             Explanation                                         Amount


       The cost sharing reported by UCAL, Berkeley included $173,728 of
       salaries and wages, which were questioned because they were not
       supported by time and effort reporting to document the amount of
       time charged to this NSF award. In addition, we questioned the
       fringe benefits costs totaling $29,534 at a rate of XXX and indirect
       costs of $102,444 at a rate of XXXX.                                      $ 305,706




                                                                                       24
                                                                                          Schedule E

                               UNIVERSITY OF HAWAII
                  National Science Foundation Award No. EEC-9731725
                  Summary Schedule of Award Audited and Audit Results
                        From November 1, 1998 to July 31, 2004


Summary of Award Audited

               Award
               Number                Award Period                  Audit Period

             EEC-9731725           11/01/98-07/31/04             11/01/98-07/31/04


Summary of Questioned and Unresolved Costs

 NSF Award        Award        Claimed      Questioned    Questioned     Unresolved Unsupported
  Number          Budget        Costs         Costs       Cost Sharing     Costs       Costs

EEC-9731725     $ 9,852,441   $ 9,852,045   $ 265,449      $ 305,706         $   -0-        $   -0-


Summary of Questioned Costs by Explanation

                                                                  Internal
                                              Questioned          Control              Noncompliance
               Condition                     Cost Amount          Finding                 Finding

Subcontract Costs – costs claimed by
 UCAL, Berkeley without adequate
 supporting documentation for salaries
 and wages, equipment and other costs.        $ 265,449                                     X


Summary of Questioned Cost Sharing by Explanation

                                                                  Internal
                                              Questioned          Control              Noncompliance
               Condition                       Amount             Finding                 Finding

Lack of time and effort documentation
 for salaries and wages cost sharing
 reported by UCAL, Berkeley (a
 subcontractor)    along     with    the
 applicable fringe benefits and indirect
 costs.                                       $ 305,706                                     X




                                                                                                  25
                                                                      Schedule E (Cont.)

                              UNIVERSITY OF HAWAII
                 National Science Foundation Award No. EEC-9731725
              Summary Schedule of Award Audited and Audit Results (Cont.)
                       From November 1, 1998 to July 31, 2004


Summary of Noncompliance and Internal Control Findings

                                                                  Amount of    Amount of
                                   Noncompliance      Material,   Questioned    Claimed
                                     or Internal     Reportable     Cost         Costs
            Condition                 Control?        or Other     Effected     Effected

• Cost sharing accounting          Noncompliance    Material      $ 305,706    $ 4,318,471
  deficiencies                      and Internal
                                      Control

• Lack of adequate supporting
  documentation for subcontract    Noncompliance    Reportable    $ 265,449    $ 3,156,289
  costs




                                                                                     26
                                UNIVERSITY OF HAWAII
                   National Science Foundation Award No. EEC-9731725
                                Notes to Financial Schedules
                         From November 1, 1998 to July 31, 2004

1.   Summary of significant accounting policies:

       Accounting basis

       The accompanying financial schedules have been prepared in conformity with
       National Science Foundation (“NSF”) instructions. Schedule A has been prepared
       from the reports submitted to NSF. The basis of accounting utilized in preparation of
       these reports differs from accounting principles generally accepted in the United
       States of America. The following information summarizes these differences:

       a. Equity

       Under the terms of the award, all funds not expended according to the award
       agreement and budget at the end of the award period are to be returned to NSF.
       Therefore, the awardee does not maintain any equity in the award and any excess cash
       received from NSF over final expenditures is due back to NSF.

       b. Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the statement of award costs include the cost of equipment
       purchased during the period rather than a provision for depreciation.

       The equipment acquired is owned by the University of Hawaii while used in the
       program for which it was purchased or in other future authorized programs.
       However, NSF has the reversionary interest in the equipment. Its disposition, as well
       as the ownership of any proceeds there from, is subject to Federal regulations.

       c. Inventory

       Minor materials and supplies are charged to expense during the period of purchase.
       As a result, no inventory is recognized for these items in the financial schedules.

       d. Income taxes

       The University of Hawaii is a private nonprofit corporation, incorporated under the
       laws of the State of Hawaii. The University of Hawaii is exempt from income taxes
       under Section 501(c)(3) of the Internal Revenue Code. It is also exempt from Hawaii
       income tax.



                                                                                         27
                                   UNIVERSITY OF HAWAII
                      National Science Foundation Award No. EEC-9731725
                                   Notes to Financial Schedules
                            From November 1, 1998 to July 31, 2004

2.    NSF cost sharing and matching:

      The following represents the cost sharing requirements and actual cost sharing from
      November 1, 1998 to July 31, 2004:

                                               Actual Cost                       Net
                                Cost Sharing    Sharing      Questioned         Cost         Over/
                                 Required       Claimed      Cost Sharing      Sharing      (Under)

Award No. EEC-9731725:
 Year 1                         $ 458,556      $ 458,556       $              $ 458,556     $         -0-
 Year 2                           843,136        843,136                        843,136               -0-
 Year 3                           884,591        884,591                        884,591               -0-
 Year 4                           491,829        491,829                        491,829               -0-
 Year 5                           550,144        550,144                        550,144               -0-

          Sub-total              3,228,256      3,228,256               -0-    3,228,256              -0-

Plus: Additional cost sharing
  provided and not claimed:
• Univ. of California,
   Berkeley                        798,000        798,000          305,706       492,294        (305,706)
• UH – graduate students
   tuition waiver                  292,215        292,215               -0-      292,215              -0-

           Total                $ 4,318,471    $ 4,318,471    $ 305,706       $ 4,012,765   $ (305,706)




                                                                                                 28
APPENDIX A – AUDITEE’S COMMENTS TO REPORT




                                            29
30
31
32
          UNIVERSITY OF HAWAII

 NATIONAL SCIENCE FOUNDATION AWARD NUMBER
                EEC-9731725

DETAILED (PERSONAL IDENTIFYING INFORMATION) ON
                 SCHEDULE B
                                       UNIVERSITY OF HAWAII
                         National Science Foundation Award No. EEC-9731725
                    Personal Identifying Information to Schedule of Questioned Costs
                                From November 1, 1998 to July 31, 2004


Subcontract Costs (Personnel) – UCAL, Berkeley:
                                                                                                    Questioned    Indirect   Questioned     Total
                                               Payroll                                   Questioned Fringe Ben.     Cost      Indirect    Questioned
      Pay Date       Name of Employee          Alloc. %           Job Description         Salaries   ( at XXX)      Rate       Costs        Costs

Missing PAR’s for the following employees:

      07/01/00   XXXXXXXXXXXXXXXX                100%      Post Doctoral                 XXXXX       XXXXX        XXXXX       $     720    $ 3,820
      09/01/99   XXXXXXXXXXXXXXXX                 50%      Post Doctoral                 XXXXX       XXXXX        XXXXX             619      2,169
      07/01/01   XXXXXXXXXXXXXXXX                100%      Post Doctoral                 XXXXX       XXXXX        XXXXX           1,058      4,386
      07/01/01   XXXXXXXXXXXXXXXX                100%      Post Doctoral                 XXXXX       XXXXX        XXXXX             985      4,085
      07/01/01   XXXXXXXXXXXXXXXX                 25%      Admin. Specialist             XXXXX       XXXXX        XXXXX             328      1,361
      07/01/01   XXXXXXXXXXXXXXXX                 10%      Assistant Level I             XXXXX       XXXXX        XXXXX              39        162
      07/01/02   XXXXXXXXXXXXXXXX                100%      Assistant Specialist          XXXXX       XXXXX        XXXXX           1,257      4,987

                                                                                         XXXXX       XXXXX        XXXXX           5,006     20,970

Missing paid payroll checks for the following employees:

     09/01/99    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             683      2,394
     09/01/99    XXXXXXXXXXXXXXXX                          Graduate Student - Research   XXXXX       XXXXX        XXXXX             743      2,603
     07/01/00    XXXXXXXXXXXXXXXX                          Graduate Student - Research   XXXXX       XXXXX        XXXXX             432      2,292
     09/01/99    XXXXXXXXXXXXXXXX                          Graduate Student - Research   XXXXX       XXXXX        XXXXX             421      1,475
     09/01/99    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX           1,237      4,337
     07/01/00    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             720      3,820
     09/01/99    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             273        956
     07/01/00    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             816      4,329
     09/01/99    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             720      3,820
 (A) 09/01/99    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             619      2,169
     09/01/99    XXXXXXXXXXXXXXXX                          Laboratory Assistant          XXXXX       XXXXX        XXXXX             127        446
     09/01/99    XXXXXXXXXXXXXXXX                          Laboratory Assistant          XXXXX       XXXXX        XXXXX              54        190
     09/01/99    XXXXXXXXXXXXXXXX                          Clerk                         XXXXX       XXXXX        XXXXX              46        162
     09/01/99    XXXXXXXXXXXXXXXX                          Laboratory Helper             XXXXX       XXXXX        XXXXX              24         85
     07/01/00    XXXXXXXXXXXXXXXX                          Laboratory Helper             XXXXX       XXXXX        XXXXX              31        165
     07/01/01    XXXXXXXXXXXXXXXX                          Associate Specialist          XXXXX       XXXXX        XXXXX           1,853      7,684
     07/01/01    XXXXXXXXXXXXXXXX                          Associate Specialist          XXXXX       XXXXX        XXXXX           1,401      5,809
 (A) 07/01/01    XXXXXXXXXXXXXXXX                          Post Doctoral                 XXXXX       XXXXX        XXXXX             985      4,085
 (A) 07/01/01    XXXXXXXXXXXXXXXX                          Assistant Level I             XXXXX       XXXXX        XXXXX              39        162

                                                                                         XXXXX       XXXXX                     11,224       46,983

 (A) Elimination of duplication for missing PAR's                                        XXXXX       XXXXX                        1,643      6,416

                                                                                         XXXXX       XXXXX                        9,581     40,567

     Totals                                                                              XXXXX       XXXXX                    $ 14,587     $ 61,537
                                UNIVERSITY OF HAWAII
                  National Science Foundation Award No. EEC-9731725
         Personal Identifying Information to Schedule of Questioned Costs (Cont.)
                         From November 1, 1998 to July 31, 2004


Subcontract Costs (Equipment) - UCAL, Berkeley:

                                                                        Check
   Name of Vendor:                                G/L Acct.             Date        Amount

Missing Invoices:

    Dell Computer                                    9900          Not avail.       XXXXX
(A) Main Street Technologies                         9900          Not avail.       XXXXX
    Hewlett Packard                                  9000          08/19/99         XXXXX
    AVIV Associates                                  9000          10/27/99         XXXXX
(A) Fisher Scientific                                9000          Not avail.       XXXXX
    Artificial Sensing Instruments                   9000          03/10/00         XXXXX

                                                                                    XXXXX

Missing Cancelled Checks:

   New Brunswick Scientific Co., Inc.               54210              10/08/01     XXXXX

     Total questioned equipment costs                                               XXXXX


(A) These two missing invoices also had the cancelled check missing.
                                 UNIVERSITY OF HAWAII
                   National Science Foundation Award No. EEC-9731725
          Personal Identifying Information to Schedule of Questioned Costs (Cont.)
                          From November 1, 1998 to July 31, 2004


Subcontract Costs (Other Costs) - UCAL, Berkeley:

                                                               Direct   Indirect    Indirect      Total
                                                 Check         Cost       Cost       Costs      Questioned
          Name of Vendor:           G/L Acct.     Date       Questioned   Rate     Questioned     Costs

Missing Invoices:

(A) VKI                               8020      Not avail.   XXXXXX      XXXX      $      352   $ 1,063
    Marsh Biomedical                  8040      06/24/99     XXXXXX      XXXX             468     1,414
    Rainin Instruments                8040      04/25/00     XXXXXX      XXXX             377     1,138
(A) Fisher Scientific                 8040      Not avail.   XXXXXX      XXXX           1,005     3,035
    Rainin Instruments                8040      06/12/00     XXXXXX      XXXX             627     1,893
    B Braun Biotech                   8000      04/15/99     XXXXXX      XXXX           8,006    24,180
    National Instruments              8000      08/23/99     XXXXXX      XXXX             654     1,976
(A) Fisher Scientific                 8000      Not avail.   XXXXXX      XXXX             525     1,586

                                                             XXXXXX                    12,014     36,285

Missing Cancelled Checks:

    Diners Club                      2905       Not avail.   XXXXXX      XXXX             336      1,015
    Diners Club                      2905       Not avail.   XXXXXX      XXXX             494      1,494
    Diners Club                      2915       Not avail.   XXXXXX      XXXX             633      1,911
    XXXXXXXXXXXXXXXX                 56639      06/07/01     XXXXXX      XXXX             432      1,932
    XXXXXXXXXXXXXXXX                 57214      Not avail.   XXXXXX      XXXX             396      1,195
    Fisher Scientific                55016      Not avail.   XXXXXX      XXXX             480      1,449
    Agilent Technologies, Inc.       56290      Not avail.   XXXXXX      XXXX           2,027      6,121

                                                             XXXXXX                     4,798     15,117

     Total questioned other costs                            XXXXXX                $ 16,812     $ 51,402


(A) These three missing invoices also had the cancelled check missing.
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www.oig.nsf.gov

           Email Hotline
            oig@nsf.gov

            Telephone
           703-292-9158

    Toll-Free Anonymous Hotline
           1-800-428-2189

               Fax
           703-292-9159

                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
